App. 1
DISTRICT COURT, PITKIN COUNTY, COLORADO
Court address: 506 East Main, Suite E, Aspen, CO 81611
Plaintiff: ASPEN PITKIN COUNTY HOUSING AUTHORITY
V.
Defendant: EDWARD L MULCAHY, JR
DATE FILED: March 6, 2019
Case number: 2015CV30150 Division: 5 Courtroom
Order: Proposed Order to Vacate Stay of Judgement

The motion/proposed order attached hereto: GRANTED.
This matter is before the Court on APCHA's Motion to Lift Stay and Mulcahy's
Motion to Vacate Judgment under Rule 60(b).
The Rule 60(b) Motion alleges, among other things, that "Mulcahy, who was
unrepresented at the trial court level and, at the time, unaware of the procedural
rights he should have been entitled to, only recently discovered APCHA's flagrant
disregard of these procedural requirements while working with undersigned

App. 2
counsel in the appellate process." Accordingly, it requests that this Court vacate
the judgment in the case, which has now been affirmed by the Court of Appeals.
The request to vacate the judgment rests on alleged due process violations flowing
from Mulcahy allegedly being denied discovery prior to resolution of APCHA's
Motion for Summary Judgment and Mulcahy's Cross-Motion for Judgment on the
Pleadings.
The Court has reviewed the Rule 60 briefing, the Court of Appeals Opinion, and
the file—including the underlying briefing on the merits of the Motions the Court
addressed in its own Order on Pending Motions filed June 3, 2016. Having
returned to the underlying record, the Court concludes the premise underlying the
Rule 60(b) Motion—that Mulcahy was unaware of his procedural rights—is
inconsistent with representations made in Mulcahy's filings prior to entry of
judgment.
Mulcahy's Motion to Amend his Answer filed April 20, 2016 makes this fairly plain.
That Motion makes clear Mulcahy understood that the case could involve both a
case management conference and discovery. See Mulcahy's Motion to Amend

App. 3
at f 12 (noting that "a case management conference has not even been held"); id.
at f 13 (recognizing right to discovery and that it had not yet commenced); id. at f
16 (stating that the scope of discovery would be substantially the same if Motion
to Amend were granted). His Reply in connection with the Motion to Amend
(erroneously entitled Surreply) similarly acknowledges that discovery is a
component of litigation, and acknowledged it had not yet begun. At no point,
however, did Mulcahy request discovery in order to respond to APCHA's Summary
Judgment Motion.
To the contrary, his Cross-Motion filings in response to the Summary Judgment
Motion expressly argued that the issues presented were legal in nature and that
there were no issues of material fact. APCHA argues in its Response to the Rule 60
Motion that Mulcahy "implicitly" indicated there were no issues of material fact. In
reality, however, Mulcahy's filings were explicit on the issue. See, e.g., Mulcahy's
Response and Cross Motion at filed 3/24/2016 at 1, If 1 (stating that Mulcahy does
not contest APCHA's facts set forth in the Complaint and Motion for Summary
Judgment); id. at 6-7 (noting that "[jJudgment on the pleadings is appropriate when

App. 4
a case's material facts are not in dispute," and is "proper only if the material facts
are undisputed..id. at 10 (admitting that he last met the employment
requirement in 2010, stating that "the present controversy involves purely legal
questions," and contending that "[h]is only defense" to the employment and
residency violations would be that they would soon be corrected.) He made these
arguments in support of his contention that exhaustion did not prevent the Court
from examining these legal questions.
When a litigant—pro se or otherwise—tells the Court there are no material issues
of disputed fact, it is not for the Court to ignore such an assertion, assume the
litigant doesn't understand its case, and tell it to adopt a different strategy. The
Court is neutral. It cannot litigate a pro se party's case for it. Nor is there any
concern here that Mulcahy lacked an understanding of
his right to discovery, because he specifically referenced that right in his own
filings. Mulcahy clearly understood a right to discovery existed, but nonetheless
chose to assert the case involved no issues of material fact and only issues of law.
His briefs were articulate and well researched, and his Answer in particular

App. 5
strongly suggested he was consulting an attorney for assistance. Moreover, the
dispositive motion strategy he adopted was rational, even if ultimately
unsuccessful.
Because Mulcahy told the Court there were no issues of material fact, and that the
dispositive motions addressed matters of law, he cannot now attack the final
judgment affirmed on appeal by claiming that he lacked discovery. The time to
have asked for discovery was when the dispositive motions were pending. See,
e.g., Waddell v. Hendiy Cty. Sheriffs Office, 329 F.3d 1300,1310 (11th Cir. 2003)
(concluding that failure to seek discovery pursuant to Rule 56(f) doomed Rule 60
Motion, and that "[i]t was Plaintiffs' tactical decisions, not fraud by Defendants,
that prevented Plaintiffs from fully presenting their case."); Dreyer v. Yelverton,
291 F. App'x 571, 578 (5th Cir. 2008) (noting that Rule 56 does not require
discovery prior to summary judgment rulings); Ortega de Pinon v. I.N.S., 87 F.
App'x 20, 21 (9th Cir. 2003) (noting that denial of discovery in immigration
proceeding did not violate due process). Abraham v. Great Western Energy, LLC,

App. 6
101 P.3d 446, 454 (Wyo. 2004), cited by Mulcahy, is consistent with this line of
authority, as it involved actual requests for discovery. The Court has
reviewed the other cases Mulcahy cites but is not persuaded they justify departing
from this line of authority.

Accordingly, the Court denies the Rule 60(b) Motion, and grants APCHA's motion
to lift the stay.
Issue Date: 3/6/2019

CHRISTOPHER GILES SELDIN

App. 7

CASE ANNOUNCEMENTS
COLORADO SUPREME COURT
MONDAY, DECEMBER 9, 2019
OPINIONS

No. 19SC692, Court of Appeals Case No. 19CA699 Petitioner:
Edward L. Mulcahy, Jr.,
V.
Respondent:
Aspen Pitkin County Housing Authority.

Petition for Writ of Certiorari DENIED. EN BANC.

